<html>
<title> - COOPER AND GENATOWSKI NOMINATIONS</title>
<body><pre>[Senate Hearing 115-369]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-369
 
                   COOPER AND GENATOWSKI NOMINATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   to

CONSIDER THE NOMINATIONS OF MR. WILLIAM COOPER TO BE GENERAL COUNSEL OF 
THE DEPARTMENT OF ENERGY AND MR. LANE GENATOWSKI TO BE DIRECTOR OF THE 
     ADVANCED RESEARCH PROJECTS AGENCY-ENERGY, DEPARTMENT OF ENERGY

                               __________

                            AUGUST 16, 2018

                               __________
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-318                  WASHINGTON : 2018      
 
 
 
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     7

                               WITNESSES

Cooper, William, nominated to be General Counsel of the 
  Department of Energy...........................................     9
Genatowski, Lane, nominated to be Director of the Advanced 
  Research Projects Agency-Energy, Department of Energy..........    14

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Air-Conditioning, Heating, & Refrigeration Institute:
    Letter for the Record........................................     3
American Public Gas Association:
    Letter for the Record........................................     4
Cantwell, Hon. Maria:
    Opening Statement............................................     7
Cooper, William:
    Opening Statement............................................     9
    Written Testimony............................................    12
    Responses to Questions for the Record........................    37
Electric Reliability Coordinating Council:
    Letter for the Record........................................     5
Genatowski, Lane:
    Opening Statement............................................    14
    Written Testimony............................................    16
    Responses to Questions for the Record........................    41
Interstate Natural Gas Association of America:
    Letter for the Record........................................     6
Murkowski, Hon. Lisa:
    Opening Statement............................................     1


                   COOPER AND GENATOWSKI NOMINATIONS

                              ----------                              


                       THURSDAY, AUGUST 16, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:20 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone.
    The Committee will come to order.
    We are here today to consider two nominees for the 
Department of Energy (DOE): Mr. William Cooper, to be General 
Counsel, and Mr. Lane Genatowski, to be Director of the 
Advanced Research Projects Agency-Energy. We know it around 
here as ARPA-E.
    Welcome to you both. Thank you for your willingness to 
serve.
    To our Committee members, we are happy to be back here in 
Washington, DC, in August. Not.
    [Laughter.]
    I can think of so many other places that I would rather be, 
should be. King Cove, Gustavus, Metlakatla, Valdez--those were 
all the places that I missed in this week, but that is my 
problem not yours. I know that you all have given up your time 
to be here, so I appreciate the fact that you are here.
    Hopefully, we will be able to conclude our business 
expeditiously this morning, demonstrating once again that the 
Energy Committee is here to work, here to serve, any time of 
the year.
    You may notice that I, as the founding member of the 
``Coalition of the Cranky,'' am going to continue in that 
honorary title. Gentlemen, with that, believe me I am not going 
to take it out on you. I do appreciate your willingness to 
serve. I also appreciate the opportunity to introduce both of 
you today and to hear from you as you respond to our questions. 
I will say that I am impressed with the experience and the 
qualifications that each of you bring to the table.
    Mr. Cooper, if you are confirmed to be General Counsel, you 
will be tasked with providing legal advice to the Secretary and 
ensuring that the Department's operations are compliant with 
the law. This requires an independent individual who is 
committed to a careful interpretation of both the law and the 
precedent, regardless of how that advice may be received. That, 
in turn, requires both confidence and backbone, but your years 
of experience in the House of Representatives and in private 
practice bode well.
    I would note that we have received several letters in 
support of Mr. Cooper's nomination, and I would ask unanimous 
consent that those be added to the record of today's hearing. 
They will be.
    [Letters of support for Mr. Cooper follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    The Chairman. Mr. Genatowski, I have to like you already--
``owski'' is as good a way to end any name--Cantwellowski, 
Hironowski. We could really make this work all around the 
Committee.
    But, aside from the name, I am actually envious of the job 
that you have been nominated for because ARPA-E, in my view, is 
a place where great things happen, great energy happens, so you 
are going to be in a good place. ARPA-E is not well-known 
outside of academic and entrepreneurial circles, but to me it 
is both critical and fascinating.
    ARPA-E is helping to bridge the gap between high-risk 
research and development technologies that have promise but 
might otherwise not be pursued. We know this is difficult work, 
but the program is pushing boundaries and producing results, 
and that is why it has garnered strong support from both sides 
of our Committee.
    While a few have questioned your background in finance, as 
opposed to being a scientist, I happen to think that your 
private-sector experience could be useful as projects and 
companies seek to navigate the so called ``valley of death.''
    While much of what you encounter may seem esoteric, whether 
it's advanced carbon capture materials or efforts to turn 
seaweed into biofuels, you will be right on the cutting edge, 
working with many of our nation's best and brightest minds, to 
develop those technologies that can transform our world for the 
better. So again, a pretty neat place to be.
    If members have additional questions after our hearing 
concludes, any questions for the record will be due at the 
close of business today.
    With our extended August session, it may be possible to 
move these nominees this work period, should they prove 
qualified and have sufficient support in Committee.
    I also want to note my growing concern about the number of 
nominees that we have reported from the Committee, who are 
still pending on the Senate calendar. We now have six nominees 
waiting for confirmation, with one of them having waited more 
than a full year, and the nominees before us today--so that 
brings us to a total of eight. We have been doing our job here 
in the Committee. We have been cooperative, but I think we have 
to do better on the Senate Floor. Given the backlog of nominees 
awaiting consideration, I am hopeful we can reach agreement to 
move nearly all of ours by unanimous consent, and I would urge 
all members to help us with that effort.
    Senator Cantwell, I turn to you this morning for your 
opening comments.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
holding this important hearing on these two very important 
nominees. I thank the nominees for their willingness to serve 
in these very demanding capacities.
    As the Department's Chief Lawyer and General Counsel, Mr. 
Cooper, you will be responsible for providing sound legal 
advice on questions of law spanning the broad range of the 
Department's mission. The job requires not only a broad 
knowledge of energy law but a deep respect and appreciation for 
the rule of law.
    Representing the state with the largest radioactive cleanup 
in the nation, I am particularly interested in making sure the 
Department's next General Counsel is firmly committing to 
upholding the Department's legal obligations both to cleaning 
up Hanford and to protecting the health and safety of workers 
who are cleaning it up. I cannot emphasize enough the 
importance of taking care of our cleanup and the workforce that 
represents that.
    We have authored legislation to help create a department at 
the Richland Center that assists both current and former 
Hanford workers as they navigate complicated health claims. It 
is a collaborative effort between the Department of Energy, 
Hanford contractors, trade councils and since its opening in 
the spring, it has proved to be very successful. Within the 
first month, it helped enable over 600 people moving through 
the process.
    I am also interested, Mr. Cooper, in your thoughts and 
scope on the Department's authority as it relates to 
electricity markets. There have been reports in the news that 
the Administration is planning to invoke some emergency 
authorities to give preferential treatment to high cost 
generation in the name of grid resilience. I have a number of 
serious concerns about this, primarily that it would be very 
costly to ratepayers. We know the Department has been asked 
about this and obviously FERC has weighed in, so the fact that 
the Administration continues to pursue what we think is a 
wrongful policy is very concerning to us.
    A Republican senator from New York, more than a century 
ago, observed that a good lawyer has to spend half his time 
telling his clients they cannot do what they want to do. The 
same might be said of the Department's General Counsel. It is 
the General Counsel's job to keep the Department within the 
bounds of the law and make sure that no one goes beyond it. So 
I intend to ask you questions about that and certainly 
questions about the responsibility of DOE in the tri-party 
agreement to cleaning up Hanford and meeting that obligation. I 
guarantee you every Energy Secretary has some idea about what 
they think is a faster way to clean up Hanford, but most of 
those have not been successful ideas. The point is, it costs a 
lot to clean up Hanford, but you have to live up to the tri-
party agreement to do that. Trying to shorten that is not going 
to be a successful strategy.
    Mr. Genatowski, I certainly appreciate your willingness to 
serve and to help with the ARPA-E mission. Congress established 
this in 2000 to overcome technological barriers in the transfer 
of important technology. I know for our state, we have had a 
lot of important issues on distributed generation, energy 
storage, fuel cell and building efficiency, lots of success 
stories, and we want to continue to see those success stories.
    It was first recommended by the National Academy of 
Sciences as a way of enhancing science and technology for the 
21st century. The Committee has had a long history, as the 
Chairwoman said, of supporting its current mission and some of 
its successes in the past. We will be looking forward to 
hearing from you on assurances that this mission will be led 
aggressively by DOE.
    It is no secret that the President has not been as 
supportive of this agency and organization, yet we believe it 
is very much about the Department delivering for the future of 
energy needs for this nation. So thank you for your willingness 
to serve.
    Thank you, Madam Chair, for the hearing.
    The Chairman. Thank you, Senator Cantwell.
    The rules of the Committee which apply to all nominees 
require that they be sworn in in connection with their 
testimony. At this time I would ask that you each rise and 
raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    [Witnesses respond, I do.]
    The Chairman. You may go ahead and be seated.
    Before you begin your statements, I will ask three 
questions addressed to each of you.
    Will you be available to appear before this Committee and 
other Congressional committees, to represent departmental 
positions and respond to issues of concern to the Congress?
    [Witnesses respond, Yes.]
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    Mr. Cooper?
    Mr. Cooper. No.
    The Chairman. Mr. Genatowski?
    Mr. Genatowski. No.
    The Chairman. Thank you.
    Are you involved or do you have any assets held in blind 
trust?
    Mr. Cooper. No.
    Mr. Genatowski. No.
    The Chairman. With that, Mr. Cooper, why don't we begin 
with you. I would encourage both of you, if you have family or 
invited guests that you would like to introduce to the 
Committee, you are certainly welcome to do that. We welcome 
your comments, your introduction, before the Committee.
    All members have seen a copy of your backgrounds and your 
resumes that are extensive.
    So please, Mr. Cooper, if you would like to lead off?

STATEMENT OF WILLIAM COOPER, NOMINATED TO BE GENERAL COUNSEL OF 
                    THE DEPARTMENT OF ENERGY

    Mr. Cooper. Thank you.
    I'd like to introduce my wife, Denise, and my colleague, 
Jason Knox. They're here with me today to provide moral 
support. I think I'll need it.
    [Laughter.]
    Good morning, Chairman Murkowski, Ranking Member Cantwell, 
members of the Committee, committee staff and personal staff, 
thank you for the opportunity to appear today as the nominee 
for the position of General Counsel at the United States 
Department of Energy.
    It is an honor to appear before the Committee. And I'm 
grateful to President Trump and Secretary Perry for the 
confidence they have in me to fulfill the duties of the office, 
if I am fortunate enough to be confirmed by the Senate.
    I'd also like to thank my wife, Denise, for her support 
over the years, as well as my children, Clay and Laura. The 
support of my family is critically important to me to have 
success in my various endeavors and, particularly, this one.
    When I was admitted to practice law several years ago, I 
swore an oath to support the Constitution of the United States 
and I pledged that I would truly and honestly conduct myself in 
a proper manner in the practice of my profession to the best of 
my skills and abilities.
    I spent the first 16 years of my professional career 
interpreting the law on behalf of clients, whether as a 
transactional lawyer or as a litigator, mostly for oil and gas 
clients and a natural gas utility district. When I accepted a 
position as counsel on the House Energy and Commerce Committee, 
my policy responsibilities, mainly in the areas of oil and gas 
and pipeline safety, included drafting legislation that would 
change the law. While at the Center for Liquefied Natural Gas, 
I frequently commented on the law, relying on the 
Constitutional right all Americans enjoy, the right to petition 
the government for redress of grievances. Then, back to Capitol 
Hill to work for the House Natural Resources Committee, where 
my responsibilities again included drafting legislation that 
would change the law. While at the Committee, my focus was on 
oil and gas, coal and mineral management on federal lands and 
Puerto Rico. Most recently, I have been with the law firm of 
McConnell Valdes, addressing my attention to the issues in 
Puerto Rico.
    Now, with this opportunity, should the Senate provide its 
advice and grant its consent for me to assume the position of 
General Counsel, I will have come full circle, with the 
opportunity to interpret the law on behalf of a client.
    The mission of the Office of General Counsel is ``to 
determine the Department's authoritative position on any 
question of law'', providing ``legal advice, counsel, and 
support to the Secretary, the Deputy Secretary, and program 
offices throughout DOE.''
    I do understand that I will no longer be in a policymaking 
role but in a role to render legal advice based upon the plain 
meaning of the statutes, rules and regulations governing a 
particular set of circumstances. And, where the meaning of a 
statute, rule, or regulation is not plain, to make a reasonable 
interpretation, using the four corners of the text, along with 
judicial precedent, to render sound legal advice as required by 
my client.
    As John Adams articulated in Massachusetts in the 1700s, 
our government is one of laws, not of individuals. But in 
government it is populated by individuals, individuals who need 
to know the law and the ramifications of particular actions as 
applied to the law. The duty of the Office of General Counsel 
is to provide that legal advice within the Department of 
Energy.
    My pledge, just as it was when I first took the oath to 
practice law, is to support the Constitution of the United 
States, and to truly and honestly conduct myself in a proper 
manner in the practice of my profession to the best of my 
skills and abilities.
    Thank you for the opportunity to be here today. I ask for 
your favorable consideration of my nomination, and I look 
forward to your questions and working closely with you and your 
staffs, if confirmed.
    Thank you.
    [The prepared statement of Mr. Cooper follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Thank you, Mr. Cooper, and again, thank you 
for not only your willingness to serve in this position but for 
your prior service.
    Mr. Genatowski, welcome to the Committee.

         STATEMENT OF LANE GENATOWSKI, NOMINATED TO BE

           DIRECTOR OF THE ADVANCED RESEARCH PROJECTS

              AGENCY-ENERGY, DEPARTMENT OF ENERGY

    Mr. Genatowski. Chairman Murkowski, Ranking Member 
Cantwell, members of the Committee, and staff, thanks for the 
opportunity to appear before you as the nominee to be Director 
of ARPA-E at the Department of Energy.
    I'd like to thank some of the staff members who met with me 
prior to this hearing to discuss your concerns and your ideas 
concerning ARPA-E and the work they do and the comments you 
both made here today at the start of the hearing.
    I'd like to thank the President and Secretary Perry for 
their trust and confidence in nominating me, and I'm deeply 
honored to be considered for the position. If confirmed, I look 
forward to working with this Committee, the Secretary and the 
leadership and the workforce at the Department to serve the 
American people.
    With your approval, I'd like to introduce my wife and best 
friend, Robin Schuman, without whose love, wisdom and unfailing 
encouragement, I wouldn't be here today. I appreciate her being 
here today and allowing me the opportunity to potentially serve 
the country.
    By way of background, I was born and raised in New York 
City and attended both City University of New York and Fordham 
Law School. After graduating and spending the first five years 
of my career as a lawyer drafting documents in infrastructure 
and energy financing, I went over and learned all the skeletal 
skills that you see in documents related to financing 
transactions which has served me well in the second step of my 
career as an investment banker. At that point after five years, 
I worked for 30 years in the investment banking divisions of 
Kidder, Peabody, JPMorgan, JPMorgan Chase, Bank of America, and 
Wells Fargo. At each firm I executed transactions and managed 
business units focused on power and energy within the context 
of large global organizations. I had the opportunity to lead 
energy sector investments in over 45 states and on four 
continents, related to renewables, oil and gas production, 
electric grid, as well as a significant volume of generating 
facilities, both nuclear and fossil. Most recently, I founded 
an investment management firm where I am responsible for its 
portfolio of investments in investment in energy and utilities. 
I think as a result, I've gained a lot of experience as a 
manager in the energy sector, as an investor, knowing where and 
when to invest capital to make a difference and in knowing what 
investors look for in their energy investments. As a lawyer I 
think I've learned how to make agreements palatable to 
investors while making sure that the mandates of my clients, 
which in many sectors, were public sector clients, their 
mandates were enforceable with promises against the investors 
borrowing money.
    Early in my career, I added a nuclear engineer and an 
electric engineer to my investment banking units to provide my 
clients and my investment bankers with a deeper insight into 
work that we were doing and the impact it was having on the 
physical environment. I learned invaluable lessons how to 
manage a nuclear engineer and electrical engineer which was 
different than managing investment bankers and lawyers.
    If I'm fortunate enough to be confirmed and appointed, the 
first thing I would do is turn my attention to my statutory 
responsibilities under the act. I would direct the staff, 
particularly, to come up with proposals that would accelerate 
ARPA-E achievements into being known and available in the 
marketplace, taking a fresh look at marketing ideas and legal 
documentations.
    I'd like to thank the members of the Committee for allowing 
me to be here today. It's an honor to come before the 
Committee, and I ask for your favorable consideration of my 
nomination. I look forward to hearing your questions and 
learning more about the challenges facing the Department and 
ARPA-E.
    Thank you.
    [The prepared statement of Mr. Genatowski follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
     
    The Chairman. Thank you so much, Mr. Genatowski.
    We will now turn to a period of questioning. Members will 
have about five minutes each for a round and, if necessary, we 
will go for a second round.
    Mr. Cooper, let me begin with you.
    I would imagine you are going to get a number of questions 
regarding the Department's actions on grid resilience. Senator 
Cantwell had raised it as well.
    Last September, the Secretary invoked his authority under 
the Federal Power Act to propose a rule to the Federal Energy 
Regulatory Commission (FERC) to stem the retirements of nuclear 
and coal plants with onsite fuel supply in the organized 
markets. FERC unanimously rejected the NOPR. Then this past 
June, the President directed the Secretary to stop the loss of 
these generating assets and it was about the same time that 
there was a memo leaked from the Department of Energy, about a 
40-page memo, suggesting the Department is analyzing locations, 
specific vulnerabilities and contemplating some kind of action 
based on authorities under the Federal Power Act or the Defense 
Production Act.
    The question to you this morning is what is your 
interpretation of the Department's statutory authority under 
both the FPA and the DPA, and in your opinion what are the 
parameters for Secretary Perry's anticipated recommendation?
    Mr. Cooper. As I understand it, the Secretary has the 
authority to propose regulations to, excuse me, propose 
regulations to the Federal Energy Regulatory Commission under 
the Organization Act which he did with the NOPR. Then it's the 
responsibility of FERC to consider that within the confines of 
the Federal Power Act which it did. And then taking to heart 
the concern about grid resiliency has expanded the scope in a 
separate docket that it has recently ordered.
    And other than that, I'm not aware of if the Secretary has 
taken any other action, but a lot of times these things turn, 
not on what the law says, but on what the facts are. And there 
may be facts in existence that I'm just not aware of and won't 
be until I get there and then therefore, I can't make the 
application of the facts to the law to render a legal opinion 
until then.
    The Chairman. But do you believe that the statutory 
authority exists within the Department under both the FPA and 
DPA?
    Mr. Cooper. Depending on the facts.
    The Chairman. Okay.
    Well, that is something that, I think, you will hear this 
Committee raise again, not only in your confirmation, but it 
obviously has been a subject of great discussion.
    Mr. Genatowski, you will find that in this Committee there 
is strong bipartisan support for ARPA-E. We have been, I think, 
very consistent in letting the Administration know, very 
clearly, that we think this is important.
    On the appropriations side, Senator Alexander, who also 
serves on this Committee, along with Senator Feinstein, have 
been good to ensure that ARPA-E maintains a level of robust 
funding. But we are up against an Administration that has 
presented a budget request these past two years to eliminate 
funding for the agency.
    What I want to hear from you today, you have indicated that 
one of your first tasks is to look at the administrative budget 
and the program details and I understand that, but I would like 
to know your views on whether or not you think ARPA-E has 
received sufficient funding, robust funding, as an agency and 
what you will do to make sure that the Administration 
understands that this is an agency that deserves to be 
supported by the Administration?
    Mr. Genatowski. Thanks for the question.
    Of course, I support the President's budget, but if 
appointed and confirmed or confirmed and appointed as ARPA-E 
Director, I think I would try to get my hands around exactly 
how much budgetary strength they have to follow out their 
projects. They're doing a great job with what they've got and 
if I was confirmed as Director, I'd obviously be an 
enthusiastic supporter of ARPA-E and all their projects to 
continue moving forward.
    The Chairman. Well, keep in mind that if you are confirmed 
you will be that advocate.
    Mr. Genatowski. Correct.
    The Chairman. Within the Administration.
    You will be the one that will go to the President with, 
again, that support for an agency, and I would like to think 
that you would aggressively advocate for a strong budget to the 
Administration.
    Mr. Genatowski. If I were confirmed and I were the 
Director, yes.
    The Chairman. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Just on this issue as it relates to the persistent attitude 
of the Administration trying to raise ratepayers' cost with 
coal, it has to stop.
    I get that you are going to have to look at the language, 
but we need the President to stop proposing to raise 
everybody's cost of electricity by mandating coal and get him 
to focus on the reliability and resiliency of the grid as it 
relates to cyberattacks. So if you could help deliver that 
message through the agency, we would so appreciate it.
    On the tri-party agreement you, as the Chief Counsel for 
the agency, are aware that Hanford is one of the largest 
cleanup sites in the country.
    Mr. Cooper. Yes.
    Senator Cantwell. Actually, in the world.
    We have a tri-party agreement that requires DOE to 
basically clean up 99 percent, basically it says the tanks must 
be cleaned up to 99 percent and use all available technologies 
or otherwise renegotiate with the State of Washington. Do you 
believe in upholding that tri-party agreement?
    Mr. Cooper. I think the Department should honor its 
commitments in the agreement.
    Senator Cantwell. Okay.
    And so, do you commit to fully consulting with the State of 
Washington, tribes and public interest, before making any kind 
of determination on tank waste?
    Mr. Cooper. I think it's important for the Department to 
reach out to all stakeholders to get their input in advance of 
any decisions.
    Senator Cantwell. Okay.
    And so, you believe in making the milestones of that kind 
of agreement?
    Mr. Cooper. I don't know what the milestones are in there, 
but if it's in the agreement and the Department has agreed to 
it, it would be my advice to strongly try to adhere to them, 
yes.
    Senator Cantwell. Okay.
    We might ask you follow up for the record because these 
milestones are what have been agreed to, and I appreciate that 
you believe the agency should adhere to them. The challenge 
that we face is obviously these milestones in the past have 
been missed and we want to make sure that contaminants not only 
reach the plans, but that the plans are actually real and in 
place. Obviously cleaning up Hanford and protecting the 
Columbia River is very important and the health and safety, as 
I mentioned in my opening statement, of the workforce there. So 
all of these are very, very important responsibilities of the 
general counsel.
    I have already said what I wanted to say about grid 
resiliency. I just think the Administration is getting itself 
into--it needs to go in the opposite direction. It needs to 
realize that the future investment in the grid in resiliency 
from cyberattacks is just so, so important to us as a nation.
    Mr. Genatowski, you had a lot of experience on one side of 
the equation, signing on the dotted line to say I will support 
and sign off on this investment. On the DOE side, a lot of 
times it is the exploratory side of the equation. How do you 
look at that change in responsibility? When I look at all of 
the things that have happened as it relates to advanced 
research, when I look at various ideas that really would not 
have been there, on some of the renewables or efficiency. It is 
not that they panned out, it is that we made a breakthrough in 
science. How would you describe where you are on that 
philosophy?
    Mr. Genatowski. Well, I think ARPA-E has got a very 
talented group of scientists, not only at the project level and 
the program level and the administrative level, that are able 
to, I think, advise me in areas where I'm, perhaps, not an 
expert.
    And I've invested my money and my client's money and my 
firm's money over the years in technologies that are risky. 
Over the course of my career I did the first initial public 
offering for a geothermal company which then had some problems 
in the State of Hawaii, then came back and did another IPL and 
now it's the largest geothermal company in the world. It was a 
risky investment at the time and my responsibility in that 
particular instance was to understand the technology they were 
using to acquire the geothermal asset in the ground and to 
translate it into thermal content and move it into a generator 
and onto the grid. And I had to explain that to the investors.
    So, I think that was an important, actually, milestone for 
me personally, in understanding investing in something that 
was, at the time, it seems now quite normal, at the time it was 
pretty cutting edge. We had to deal with fluids. We had to deal 
with steam, dry steam. And I convinced the investors to do 
that.
    Chairman Murkowski was talking about the valley of death, 
in terms of these investments that are large, they're long-term 
and they need people on the other end to catch them and sustain 
them that, I think, goes beyond just the venture capital 
typical, size of investment and duration of investment.
    So I think in that regard one of the things I can bring to 
help the agency is my familiarity with, kind of, what works on 
the back end to actually take what the scientists do and 
translate it into a piece of equipment or a methodology or 
piece of IT that tells people how to drive, to make things more 
efficient, to place that in the hands of people that can 
actually put it in the marketplace, sell it to people and 
either reduce greenhouse gas pollution or increase efficiency 
in the real world.
    Senator Cantwell. Well, we have had lots of discussions 
over my time on technology transfer and what works and what 
doesn't. And yes, there has been a fair amount of critique of 
our national labs at various points of time about how much 
technology transfer they do do and whether they do it well, so 
I have no doubt you could probably add something to that 
discussion.
    But I guess before the valley of death comes this decision 
about investment, writ large. I do think that you have a 
background in these subject areas that will be helpful for 
that. I just want to make sure that we are looking at that in a 
broad scale perspective of what the biggest opportunities and 
payoffs are and that we listen to groups and organizations 
about that level of investment, because I like the fact that 
you said you wanted to listen to the scientists because they 
are the ones who are going to tell us where the big 
opportunities are.
    I am a big believer in science, and I am a big believer in 
listening to scientists.
    So thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Senator Cassidy.
    Senator Cassidy. Let's continue, kind of, on this.
    It is rather nebulous what you just laid out. I am not 
criticizing you, but I like to have more detail.
    When you look at a project and you say this truly can 
translate into something which is commercially viable, what are 
you looking at because that gives us a sense of whether or not 
things are being looked at correctly. If you follow what I am 
saying?
    Mr. Genatowski. Sure.
    Part of the ARPA process in evaluating projects up front is 
to evaluate initial commercial-ability, viability, in the 
marketplace.
    I think up front, it's extremely hard to put a panoply of 
144 projects or 150 projects out there and make the judgment 
that they're all going to end up being commercially viable 
because they have a lot of hurdles to go through.
    I think the first question you have to ask is, is it 
scientifically viable and that's where I get the advice. Then 
the question is, is it something to be used in the real world? 
Will it displace something that's meaningful in terms of a cost 
factor? If you've got customers that have invested equipment in 
the cost base and the equipment is long-lived, you've got to 
feel that you're comfortable coming out the back end with 
something that is revolutionary and not micrologically 
evolutionary.
    In other words, it's got to make a cost difference for 
somebody to take a piece of equipment that they've not fully 
amortized, write it off and put a new piece of equipment in.
    So, that's one of the things, I think, that I'd be looking 
for and to see that at the end of the day, not only does it 
make a difference, but the difference isn't marginal or the 
difference has the potential for not being marginal. The 
difference has a potential for being revolutionary enough to 
actually be bought and paid for by someone who takes an 
existing piece of equipment who moves it out and puts a new 
piece of equipment in.
    Senator Cassidy. Okay.
    So, if you will, looking at the impact this could have, it 
is not that, for example, coal-fired plants are being replaced 
with combined cycle and natural gas probably before they have 
been completely paid for. But that is probably related as well 
to natural gas being a lower cost input as well as it is a 
better environmental profile.
    I am just trying to understand this practically.
    Mr. Genatowski. I could give you an example.
    Senator Cassidy. Please.
    Mr. Genatowski. There's a program on methane detection 
which is very important to keep greenhouse gases out of the 
atmosphere. It doesn't require large capital expenditures on 
the back end. It requires a lot of science on the front end to 
get the sensors to the stage where they can detect, not only 
the methane from, let's say a--flying over in a probe or being 
on a worker's uniform or cap. That's not a very large 
expenditure on the back end. So that's something where you 
might take more risk on the front end and say, that can easily 
be viably commercial.
    If you were looking at something that was larger, had a 
larger expenditure, then you'd want to be a little more certain 
on the front end, that it would be something that could 
displace a larger piece of equipment.
    And that's in, I guess what I'm trying to say is those 
would be things you'd weigh and it's very hard to quantify 
something like that if you're 10 years away or 15 years away 
from commercialization.
    A lot of risks have to be taken, I think, in an ARPA-E 
environment to see how things develop as they go.
    Senator Cassidy. So let me ask because these questions are 
obviously focused on ARPA-E--one of the challenges it seems 
that you have is how to convince us and the taxpayer of the 
value of what you were doing, if that makes sense. It is one 
thing if you are an angel investor because you are getting a 
return on your investment, perhaps not as much if you are a 
taxpayer and you are wondering what is happening with it.
    Any thoughts how to take these highly technical issues and 
break them down so that folks like us can understand and then 
in turn it translates to the taxpayer, this is a good value for 
your taxpayer dollar?
    Mr. Genatowski. I think the way you can explain it is as 
the projects go along they first have to have some type of 
scientific validity and some reason to start the experiment 
because if 100 percent of ARPA's experiments end up in the 
marketplace they're not doing their job, they're really just 
doing a job for industry. If none of them end up in the 
marketplace, they're not following the statutory obligation to 
basically place something in the marketplace to actually 
benefit the environment or to reduce the importation of fuel or 
oil or reduce--or increase the efficiency of energy 
consumption. So, I think, there's some blend.
    And I don't know you can tell at the initial starting gate 
if you've got 144 projects which ones are going to make it and 
which ones aren't. If they all make it, you've not done a good 
job selecting enough science. If none of them make it, you've 
not done a good job selecting enough commerce.
    Senator Cassidy. Okay.
    Mr. Genatowski. I think it's something that you, kind of, 
figure out as you go along, quite frankly.
    Senator Cassidy. Okay, well, thank you.
    I yield back. Thank you.
    The Chairman. Thank you, Senator.
    Senator Smith.
    Senator Smith. Thank you, Madam Chair, and thanks to both 
of you for being here today and for your willingness to serve. 
I appreciate that very much.
    I would like to start with Mr. Cooper, if I may.
    I am interested in hearing your views on the question of 
natural gas exports and the impact of natural gas exports on 
domestic prices.
    This is a big deal in Minnesota where two out of three 
homes in my state depend on natural gas heat to get through our 
famously cold Minnesota winters. Of course, if the price of 
natural gas goes up that is something that Minnesotans feel 
directly.
    The biggest consumer of natural gas in Minnesota is 
actually our industrial sector, and there has been a study by 
the U.S. Energy Information Administration which found that 
increasing natural gas exports raises prices for consumers. 
That makes sense. More demand, supply, you know, kind of basic 
economics.
    My question for you as you think about this role of general 
counsel where I understand your job will be to interpret the 
law and then reflect that to the policymakers and the 
Administration. But could you talk to us a little bit about how 
your background leading the Center for Liquified Natural Gas--I 
keep wanting to say national gas, liquified natural gas--just 
explain to me how you will jive that experience with your new 
role as General Counsel in the Department of Energy.
    Mr. Cooper. Some folks would say that natural gas is the 
national gas.
    [Laughter.]
    The role of general counsel would be to advise the folks 
within the Department about the law and its implications given 
a particular policy initiative.
    Up until this point in time and certainly as LNG exports 
gained momentum, I'll say, as natural gas reserves in the 
United States has really multiplied at an exponential scale, 
the Department has to look at what's in the public interest. 
That's kind of a vague, broad analysis that's in the Natural 
Gas Act for the commodity.
    The Department of Energy authorizes the export or import of 
the commodity. The Federal Energy Regulatory Commission 
authorizes the design, construction and operation of the 
facility itself and that facility's impact on the surrounding 
environment. So the DOE's role is limited to the commodity and 
its impact on the marketplace.
    There are several factors that have been developed over the 
last few years that the Department looks at. One of them is the 
cumulative impact of LNG exports as each new project is being 
considered and the consequences on the supply.
    Senator Smith. On price?
    Mr. Cooper. Well, supply and price are----
    Senator Smith. Right.
    Mr. Cooper. ----linked together, obviously.
    Senator Smith. Right, obviously.
    Mr. Cooper. It's tight and the price goes up to reflect 
that in the marketplace. And if supply is abundant, then that's 
also reflected in lower prices absent some externality that 
would influence the market.
    Senator Smith. But do you see that, sort of, increased 
exports has the impact of raising prices for----
    Mr. Cooper. I have not. I have not.
    Senator Smith. So, you would not agree with this.
    Mr. Cooper. Since my time at the Center for Liquified 
Natural Gas and when exports really were beginning to be an 
idea, natural gas prices in the United States, as a whole, even 
cash prices and the forward pricing, has remained under $3.00. 
There are a month or two in the wintertime that I've seen on 
the forward strips, it might actually hit $3.00 or $3.10.
    Generally, what drives the spikes would be pipeline 
constraints in the Northeast, but we have not seen any evidence 
that LNG exports is driving the market, as far as pricing goes 
anyway.
    Senator Smith. I wanted to raise this because I think that, 
certainly me and I think many of us on this Committee think 
about this in terms, as Senator Cantwell is saying also, think 
about this in terms of price for our consumers and our 
constituents.
    I am appreciating this and I think it is important that we 
keep it, that you keep a keen eye on this as well as you are in 
this role.
    I just have a couple more seconds, but I would like to--
Senator Murkowski maybe I should go for the rest of this month 
as some Senator Smithowski.
    [Laughter.]
    Just for August, just for August.
    Mr. Genatowski, I would like to just add my strong interest 

in support of the work of ARPA-E. This is really important in 
Minnesota. The University of Minnesota is actively involved in 
ARPA-E grants and I am one who believes strongly that the 
future of energy is going to happen, and the question is only 
whether we decide to lead or whether we end up following.
    You would have the unenviable role of advocating for work 
that apparently this Administration wants to zero out. I just 
want to reiterate how important it is to me and to Minnesota 
that you are in a position to be a strong advocate.
    Mr. Genatowski. Yes, Ma'am. Thank you.
    Senator Smith. Thank you.
    Thank you.
    The Chairman. Thank you, Senator Smithowski.
    Senator Hironowski.
    [Laughter.]
    Mr. Genatowski. This is a first.
    [Laughter.]
    Senator Hirono. Thank you, Madam Chair.
    I ask this of all nominees who come before any of the 
Committees on which I sit. I ask the following two questions. 
So, I will ask the two of you, and I will start with Mr. 
Cooper.
    Since you became a legal adult have you ever made unwanted 
requests for sexual favors or committed any verbal or physical 
harassment or assault of a sexual nature?
    Mr. Cooper. No.
    Senator Hirono. Mr. Genatowski, same question.
    Mr. Genatowski. No.
    Senator Hirono. Have you ever faced discipline or entered 
into a settlement related to this kind of conduct?
    Mr. Cooper. No.
    Mr. Genatowski. No.
    Senator Hirono. This is question for Mr. Cooper.
    I think that Chair Murkowski also referred to this. On June 
1st President Trump directed Secretary Perry to take, and I 
quote, ``immediate steps to prevent the loss of fuel secure 
power plants.'' Basically this is really what amounts to a 
bailout of unprofitable coal and nuclear plants. In a leaked 
DOE draft memo, it would require electric grid operators to 
purchase power from coal and nuclear plants.
    In a Committee oversight hearing on June 12th, several 
Federal Energy Regulatory Commissioners seemed very dubious 
about the order. For example, Commissioner Glick noted that it 
would stifle development of innovative new energy resources 
like energy storage, while costing the public billions of 
dollars in higher energy costs.
    Mr. Cooper, what do you know about the Department's plans 
for carrying out the President's order on basically, 
subsidizing coal and nuclear plants?
    Mr. Cooper. Not having been confirmed yet and not being 
made privy to all of the facts, I really don't know what their 
plans are other than what has been publicly stated.
    Senator Hirono. So, should you be confirmed then, would you 
go about helping the Department implement the President's 
order? Would you consider that part of your job?
    Mr. Cooper. My role would be to advise the Department on 
the law and ascertain what the facts are surrounding that 
particular circumstance and advise the Department on the 
application of the facts to the law. And at present I don't 
know what the facts are.
    Senator Hirono. Well, as you go forward, should you be 
confirmed, I would be interested in how the Administration 
intends to proceed with this, basically subsidizing coal and 
nuclear plants.
    You indicated in your testimony that your job would be to 
provide legal advice based on the plain meaning of the law that 
confronts you and if the meaning is not plain, you would make a 
reasonable interpretation using the four corners of the legal 
text. So, by four corners do you also include legislative 
history?
    Mr. Cooper. I'm sorry, I didn't hear the last part.
    Senator Hirono. You said in your testimony that in order to 
interpret the statute, a relevant statute, then your job is to 
provide advice. And in terms of the interpretation, if the 
statute itself is not clear so, the plain meaning, that you 
would look at the four corners of the text.
    My question is do the four corners include legislative 
history?
    Mr. Cooper. If legislative history is a means by which we 
can try to interpret what the statute says, then by all means 
we would go there. The very first place, of course, is the 
statute itself.
    Senator Hirono. Yes. I don't mean to interrupt. I only have 
a minute left.
    So yes, I understand about the plain meaning, but I just 
wanted to know what the four corners of the legal precedent are 
because you would only apply to four corners if the 
legislative, if the statute itself, is not clear on its face.
    Let me move on.
    For Mr. Genatowski, I thought it was very interesting, of 
course, coming from Hawaii that you had a part in providing 
some funding for geothermal. Unfortunately Puna Geothermal has 
been overtaken by lava, but that doesn't mean that geothermal 
is not, would not be, a reliable source of energy.
    You do have a long background as an investment banker. Do 
you agree with the mission of ARPA-E, established by Congress, 
to take on the high potential, high impact energy technologies 
that are too early for private sector investment?
    Mr. Genatowski. I do.
    Senator Hirono. I like the framing that you said if 
everything that ARPA-E invests in becomes commercial or if 
nothing that it invests in becomes commercial that ARPA-E is 
not doing its job.
    I think you do need to listen to the scientists to make 
sure that what you are supporting under ARPA-E has a potential, 
but not 100 percent potential for commercialization. There is a 
risk taking involved in moving us toward an energy self-
sufficient future, and that's something that Hawaii is very 
interested in because we have received ARPA-E funding. You 
probably know that Hawaii has the most forward thinking, as far 
as I am concerned, energy goals. We want to be 100 percent 
energy self-sufficient in electricity by 2045 and we rely on 
ARPA-E for a lot of the cutting-edge support that we want to 
move forward on.
    So in spite of the fact that this Administration is peopled 
by folks who are very much invested in the fossil fuel 
industry, I would want to have your commitment that you would 
do everything you can to articulate support for ARPA-E and its 
mission.
    Mr. Genatowski. Yes, Ma'am. All the projects that come into 
ARPA-E would all be evaluated by the scientists and by a merit 
committee. They respond to the FOAs or the OPENs and then they 
would get the funding.
    Senator Hirono. You are going to need to become a very 
strong voice and advocate because the President wants to cut 
back or wipe out ARPA-E.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Senator King.
    Senator King. Mr. Cooper, I'm sure you are aware of Section 
717b of Title 15 in the Natural Gas Act and that it states that 
an export license for an LNG terminal shall be, ``consistent 
with public interest.'' Do you consider potential effects on 
domestic gas prices as part of the public interest analysis in 
making that decision?
    Mr. Cooper. Well, there are two different analyses that 
occur if it regards the facility, the design operation, 
construction of the facility and its impact on the surrounding 
environment----
    Senator King. No, no, I am not asking that question.
    I am not asking that question. I am asking about the 
Department of Energy permit under 717b that an export facility 
would be consistent with the public interest. Do you consider 
potential effects on domestic gas prices as part of the 
analysis of the public interest?
    Mr. Cooper. I think that the precedent within the 
Department is on the economic impacts of the marketplace which 
would include pricing.
    Senator King. It would include effect on domestic prices? 
This is a very specific question because----
    Mr. Cooper. I understand.
    Senator King. You are going to be faced with this question.
    Mr. Cooper. I understand.
    Senator King. Does consistent with the public interest 
require analysis of effect on domestic prices by increased LNG 
exports?
    Mr. Cooper. It's my understanding that the parameters that 
the Department applies includes the impact on the economy. I 
would assume there would be some analysis of pricing, but I 
would reserve the right to review those policies and the 
section of the Natural Gas Act you're referring to before I 
could make a definitive statement.
    Senator King. I would like you to make that analysis and 
provide it to the Committee for the record in this proceeding. 
I think this is a very important question.
    There are now pending, as of June 28th of this year, 57 
billion bcf per day of export, of LNG export applications. 
Total production is now 90. That is more than half. It is 
strange credulity to assume that that level or anything close 
to it would not affect domestic prices. So this is a very 
important question, you are going to be faced with it as 
General Counsel, what the meaning of that provision is. I would 
like your view on the meaning of the ``consistent with the 
public interest'' phrase and whether specific economic analysis 
of effect on domestic gas prices is part of a public interest 
analysis.
    Okay? Thank you.
    Mr. Genatowski, the first words out of your mouth when 
asked by the Chairman about ARPA-E was, of course, I support 
the President's budget. My first thought is then why are you 
sitting here? The President's budget zeros out this agency. You 
cannot be two people. Do you support the President's budget or 
do you think ARPA-E has an important mission?
    Mr. Genatowski. I support the President's budget and I'm 
here because I'd like to get a chance to run ARPA-E and put my 
oar in the water and help it out to be as better as it can be.
    Senator King. Well, you understand the nature of the 
question.
    Mr. Genatowski. The dichotomy?
    Senator King. Yes.
    Mr. Genatowski. I do.
    Senator King. I am seeing two guys sitting at the table 
here. You either support the President's budget which is zero, 
or you want to run an agency that has an important mission in 
this country that is supported year after year by this 
Congress.
    Mr. Genatowski. I guess in my mind I can hold both concepts 
and they wouldn't be inconsistent.
    If the Congress votes to appropriate money and authorizes 
money to be appropriated to run ARPA-E, the President signs the 
bill. There will be a budget for ARPA-E, and I'd like to be the 
person that runs it.
    Senator King. And you would run it consistently with 
Congressional appropriations and with the provisions of the 
statute?
    Mr. Genatowski. Absolutely. It's the law.
    Senator King. Next line of questioning is, you are a 
finance guy, not a scientist. ARPA-E is a science agency. Why 
should we confirm a guy to one of the most important science 
positions in the government who is not a scientist?
    Mr. Genatowski. Well I think ARPA-E has a lot of scientists 
in and out of ARPA-E that work with it, give it a lot of input. 
I think one of the obligations of ARPA-E is to, as I said 
before in reaction to another question, try to deliver some of 
the products into the marketplace so the citizens can realize 
the benefits in the environment and in the economy of more 
efficiency and less greenhouse gas and pollution. And I think 
that I understand what the ultimate buyers do, what they look 
at, to purchase the equipment and implement the scientific 
discoveries into the real world, in the real operating world.
    Senator King. Thank you. Well, I will be interested in 
that, how you navigate that and I appreciate your answer.
    Mr. Cooper, one final quick question. In your prior 
position, well, let me broaden it. Do you know of any studies 
published or unpublished of effects of natural gas exports on 
domestic prices at varying levels?
    Mr. Cooper. There have been a couple of studies performed 
in the last three or four years, I believe, that were filed as 
part of the docket at the Department, of the LNG export docket.
    I can't remember the name of the consulting firm that 
prepared them, but yes, I'm aware that there are studies.
    Senator King. In your prior work for the Trade Association 
did you all prepare any studies, do any published or 
unpublished studies of that question?
    Mr. Cooper. No, we did not.
    Senator King. Do you have an opinion as to what level of 
exports, in terms of a percentage of production, would be, 
would produce significant increases in domestic prices?
    Mr. Cooper. I think it's difficult to do that because as 
pricing triggers increase in the development of supply, the 
development supply triggers the decrease in pricing. It's 
difficult for me, not being the economist or person who does 
modeling to be able to do that.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Senator Manchin.
    Senator Manchin. Mr. Genatowski, the only thing I would ask 
to follow up on what Senator King has asked is, did you seek 
this job or did they seek you out? Is this something you put 
your name in for that you would be interested in or it just, 
kind of, came up?
    Mr. Genatowski. It, kind of, came up.
    Senator Manchin. It, kind of, came up. So, you won't say 
your expertise is in this, as you mentioned, it's----
    Mr. Genatowski. Can you repeat that, Senator?
    Senator Manchin. Would you acknowledge that this is not 
your expertise in ARPA-E, Department of Energy?
    Mr. Genatowski. I think my expertise would be valuable to 
ARPA-E.
    Senator Manchin. You do. From what----
    Mr. Genatowski. Well, I've managed various groups of 
professionals in the energy sector for 30 or 40 years. I've 
been an investor in the energy sector, and I know the investors 
in the energy--I've invested my money, client's money and firm 
money in the energy sector for 30 or 40 years.
    And I understand, having been a draftsman of drafting 
documents in the energy and infrastructure sector for five 
years and reading them for 35 years, what documents our 
investors are amenable to sign and also what promises you can 
put in those documents that are enforceable.
    Senator Manchin. Let me speak about one in particular, 
carbon capture utilization (CCU). The Carbon Capture 
Utilization Research Council in the use and deployment of the 
CCU is what we consider to be one of the tools in the tool 
boxes.
    You are familiar with the carbon capture utilization and 
sequestration. As you see it, what is the greatest challenge 
that has limited this technology from greater commercialization 
to date? Why have we not been able to use this on a commercial 
scale and why have we not promoted and developed any commercial 
use with carbon capture utilization? And do you believe that 
ARPA-E can and should be playing in low emissions fossil fuel 
generation?
    Mr. Genatowski. On the first question, I don't have the 
technical knowledge, and I'd have to ask the staff at ARPA-E to 
help me out to answer that question.
    And then I'd ask you to repeat the second question.
    Senator Manchin. What role, well, the second one would be, 
probably the same answer. What role do you believe that ARPA-E 
can and should be playing in low emission fossil fuel 
generation? Do you believe there is a role for ARPA-E in that?
    Mr. Genatowski. I think ARPA-E has a role in terms of 
reducing greenhouse gases. It's in their research mandate. And 
I think if proposals come in through OPENs or FOAs and they 
pass through the review process, ARPA-E would fund the 
research.
    Senator Manchin. I am thinking like Senator King, my friend 
mentioned, that it has been zeroed out. So the intent is to 
close down ARPA-E, intent from the Administration which must be 
coming from the recommendation from Secretary Perry or from the 
Department of Energy or someone within the White House. Did 
they bring you in to close it up, just, kind of, put the nail 
in the coffin, as we say?
    Mr. Genatowski. No, sir.
    Senator Manchin. When you were vetted for this position did 
they talk to you about we have zeroed it out so we want you to 
put it to bed, lay it to rest?
    Mr. Genatowski. Not one minute was I talked to about 
closing it out.
    Senator Manchin. Did you know at the time that you were 
being vetted that it had been zeroed out?
    Mr. Genatowski. Yes, I did.
    Senator Manchin. What were your questions?
    What would be your question to them, whoever vetted you, 
why did you pick me since you want to close the system down?
    Mr. Genatowski. Well, the people that vetted me, I guess, 
picked me because they thought if it wasn't closed down I could 
add something. And I'd add something in terms----
    Senator Manchin. Was it the White House? Was it White House 
staff who vetted you or Department of Energy?
    Mr. Genatowski. I don't necessarily know who ended up 
vetting me. I spoke to people at the Department of Energy, and 
I spoke to people at the White House.
    Senator Manchin. Okay.
    Mr. Cooper, as General Counsel you are going to be 
responsible for providing legal advice throughout the agency. 
How do you intend to support the culture that prioritizes 
accountability and transparency? I think your role would be to 
Secretary Perry, I believe, to recommend and advise?
    Mr. Cooper. I'm sorry, I lost a little bit in the 
translation. Could you repeat the question?
    Senator Manchin. Well, the question was how do you intend 
to support a culture that prioritizes accountability and 
transparency?
    Mr. Cooper. I think first of all the General Counsel's 
office needs to look at what policies and procedures are in 
place and then reinforce those policies and procedures to 
further a culture of accountability and transparency.
    Senator Manchin. The Department of Energy, alongside with 
the White House and National Security Council, are examining 
ways to ensure a level playing field for coal and nuclear power 
plants that are in danger of retirement. Are you moving up on 
that? Have they talked to you about that or have you followed 
that?
    Mr. Cooper. I've followed it from afar as a private 
citizen.
    Senator Manchin. We are talking about the plants that 
provide resiliency and reliability to our grid, and that means 
they are important to the national security.
    So with your background in energy, I am interested to know 
whether you agree with the President that these power plants 
are critical for national security? That would be nuke and 
coal.
    Mr. Cooper. In my role as the General Counsel, I'd have to 
have access to the facts that I don't have today to be able to 
make that determination.
    Senator Manchin. It came from the Department of Energy. It 
came from the Secretary, himself, who basically said that our 
grid could be in jeopardy without the baseload fuel of coal and 
nuke plants. The coal plants mean ones with all the pollution 
controls on and the nuclear and all those up-to-specs and up-
to-date.
    Are you concerned or have you followed that, I know you 
have an energy background, correct?
    Mr. Cooper. I have an energy background.
    Senator Manchin. Are you concerned about the reliability of 
the grid?
    Mr. Cooper. I am concerned about the reliability of the 
grid. I think the Department is as well.
    Senator Manchin. So, we will see, we will have to see which 
way that goes.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair.
    Mr. Genatowski, let me follow up on some of the questions 
that Senator Manchin asked you with the ARPA-E program.
    What would you do in your capacity as the Director to 
advocate the value of the ARPA-E's program to the Secretary and 
to the President?
    Mr. Genatowski. I would play to the external management 
evaluation National Academy of Sciences used. They've got a lot 
of research that they've done, many publications. They've got 
companies that have been formed. They've got products that have 
gone into the marketplace and actually changed the environment.
    I think there are other citations of major publications. 
There are patents applied for, et cetera. There are a lot of 
different external goals, I think, that the National Academy 
had--about seven or eight--that they looked at. A lot of those 
are interim goals that are adding to knowledge which is 
important and some of them are, I'd say, ultimate goals which 
address the phrase and the statute of deployment, a deployment 
of the assets.
    Some of those things are the geothermal well with the laser 
beams going down the middle to soften up the rock. There's the 
BASF venture capital where--to increase the viscosity and then 
not have any kind of attachment against the walls of a pipe or 
whatever. There's smart wire. There are many things that have 
made it to the end of the marketplace that have actually 
changed the way the market works and changed the way 
electricity moves, the way power moves and the energy moves and 
helped the environment.
    Those are a handful of things out of a lot of projects 
which seems to me like the right ratio. Some failures, some 
projects that add to knowledge that haven't yet hit the market 
and then some things in the marketplace.
    So, I guess, it seems to me they're doing their job and 
they should be continued for that reason. That's why, that's 
how, I guess, I would advocate it.
    Senator Cortez Masto. Okay, thank you.
    Mr. Cooper, would you please share your general position on 
whether Yucca Mountain in Nevada should be a federal repository 
for the nation's nuclear waste?
    Mr. Cooper. My position would be that the Department would 
follow the statutory mandates on Yucca Mountain, and I would 
advise the Department to do so.
    It's the role of Congress to speak to that and I think 
Congress already has.
    Senator Cortez Masto. Would you recommend that the 
Secretary accept the framework established by the Blue-Ribbon 
Commission which was later accepted by your General Counsel 
predecessor and the Secretary's predecessor?
    Mr. Cooper. I'd have to review the Commission's findings, 
and I haven't done so.
    Senator Cortez Masto. Would you support legislation 
requiring consent by state and local governments?
    Mr. Cooper. By all means that's a decision for the Congress 
to make and it would not be a decision that I could make in my 
role as Office of General Counsel.
    Senator Cortez Masto. You do not think the Department of 
Energy would take a position one way or the other on whether or 
not there should be consent-based siting?
    Mr. Cooper. I'm sure that it would depend on the 
particularities of the proposed legislation.
    Senator Cortez Masto. Okay.
    On January 8th, FERC unanimously rejected DOE's grid 
resiliency proposal to provide support for failing coal and 
nuclear plants saying that there is no evidence that any past 
or planned retirements of coal-fired power plants pose a threat 
to reliability of the nation's electric grid.
    Subsequently, a leaked DOE memo dated May 28th stated they 
would compel grid operators to buy electricity from at-risk 
plants under the auspices of national security.
    Considering there is no existing emergency to respond to, 
it is hard to envision how propping up those at-risk coal and 
nuclear plants might be implemented.
    In your legal opinion, what would such an emergency look 
like that would keep these plants online that could not be 
rectified with the grid system and resources we already have 
today?
    Mr. Cooper. I really couldn't speculate on the fact pattern 
that I haven't seen that exists today or what might occur in 
the future. All I can commit to is that I would advise the 
Department of what the law says and then try to make a 
reasonable application of the facts to the law.
    But at this point I'm not in a position to give an opinion.
    Senator Cortez Masto. Thank you.
    On August 14th Secretary Perry was quoted as saying, ``the 
government must ensure that the U.S. has baseload capability 
that only coal and nuclear can bring. The wind doesn't always 
blow. The sun doesn't always shine and gas pipelines are 
interruptible.''
    From your experience in the natural gas industry would you 
agree with this assessment?
    Mr. Cooper. At a top line level, yes.
    Senator Cortez Masto. And any other comments? At a top line 
level, yes, what does that mean?
    Mr. Cooper. Well, I'm saying that the energy sector is 
robust, it can be complex. I think that to do a full and 
complete analysis of how each part of the energy industry fits 
into the whole is more than I can succinctly state here today.
    Senator Cortez Masto. Okay, thank you.
    I notice my time is up.
    Thank you very much.
    The Chairman. Thank you, Senator.
    I have one last question for you, Mr. Cooper, and this has 
been raised a little bit by Senator Cantwell and some others.
    As we are all aware, the Department of Energy has stood up 
a new Office of Cybersecurity, Energy Security and Emergency 
Response, the CESER. This is going to be a program, or an 
office I think, that we are all paying very, very close 
attention to.
    You have a lot of overlap between electricity delivery, 
reliability and cybersecurity. There are those who would 
suggest that cybersecurity has to be, kind of, designed into 
every aspect of system operation and that a separate program 
might actually be counterproductive. I hear that argument. I 
happen to look at this and say, we have a significant issue 
going forward, and I think that an office is important.
    A question for you is whether or not you agree with me on 
that and then, when it comes to cyber issues on the energy 
grid. You have a situation where you are going to be 
effectively managing different relationships between the 
Department of Energy and other agencies that are operating in 
this sphere, whether it is the FERC, you have the Department of 
Homeland Security, you have the NERC, the North American 
Electric Reliability Corporation, and then you have the private 
sector in there. Can you just speak to the issue of cyber, the 
new office itself, as well as the interplay with these other 
departments and programs as it relates to how we respond 
effectively on matters of cyber?
    Mr. Cooper. I'm aware that the Office has been established. 
I'll leave it to the policymakers as to whether there should be 
an independent office or whether it should be integrated, 
absent such an office. I think they have spoken.
    My role would be to advise and consult the Department in 
the development of that and all I can do is pledge that I'll do 
my best to fulfill the mission of the Department in that 
respect.
    The Chairman. Well, I appreciate that you will, in your 
role as General Counsel, have the opportunity to weigh in on 
many of these issues and I guess I'm just putting out a concern 
that this is something that we do not want the DOE to be shut 
out.
    I feel pretty strongly that when it comes to issues of 
cyber, as they relate to energy and energy security and 
reliability and resiliency here, that it is extraordinarily 
important that the Department of Energy be at that table in 
those discussions and really a strong participant.
    Senator King or Senator Manchin, any follow-up?
    Senator Manchin. I just have one thing. You can tell we 
have an interest in an all-in, and some of us do, an all-in 
energy policy.
    I want to make it very clear, in my state we have 90 
percent coal-fired plants because we are a state that is rich 
in coal.
    We are also one of the states that has been blessed with 
natural gas, and we also believe in wind. We have one of the 
largest wind farms east of the Mississippi. So we are all for 
all of this.
    The only thing that we are saying is to basically take a 
perfectly good, modern coal plant that has been upgraded with 
all the new modern technology for pollution control, SOX and 
NOX and all the things that we do, offline could jeopardize the 
grid because the only two products that you have that are base 
loaded right now is coal. You have 60 days of coal laying 
there, that plant will run 60 days uninterrupted. If you have 
90 or more, the same. If you have nuke plants up to speed, they 
are going to do the same if they have nuclear fuel.
    Wind doesn't blow all the time. Sun doesn't shine all the 
time. We do not have the technology to date for the storage 
that is needed. Natural gas lines can be interrupted. We are 
trying to build more gas lines and develop them, especially up 
into the Northeast where the product is needed.
    So, with that being said, that was why the question I was 
asking, I think, by my dear friend, Senator Cortez Masto, was 
coming at a different angle at this, but we are just wanting 
people to be honest. You have to have baseload fuel to run the 
grid system, or if not, the well-being of our country and the 
security of the grid and the security of our nation could be at 
risk.
    We are hoping with your knowledge of energy you will be 
looking into that and the advisement would be not to take any 
of these plants that are up to speed and up to the latest of 
technology offline until there is another baseload fuel to run 
24/7, dependable, reliable and affordable. That is where, I 
think, we were trying to get to and hopefully you would 
consider that.
    Mr. Cooper. I would look forward to working on the issue. I 
really do.
    Senator Manchin. Thank you.
    The Chairman. Well, gentlemen, thank you again for 
appearing before the Committee and your willingness to respond 
to the questions.
    As I mentioned in my opening, it is my hope that members 
will have an opportunity to weigh in if they have additional 
questions to be submitted for the record. We would ask that 
those be submitted by close of business today.
    Mr. Genatowski, I think the only follow on comment that I 
would add is, again, an imperative. I hope that you feel from 
this Committee, and I think that you will feel from many in 
this Senate, again, on a bipartisan basis, there is a support 
for ARPA-E. There is a role for ARPA-E. We have seen it 
demonstrated.
    While I understand that there is an expectation that you 
would say you support the President's budget, my hope is 
certainly that when you have the opportunity to weigh in as 
that budget is being formulated that we won't be looking at 
next year's budget coming out of the White House and seeing 
ARPA-E recommended to be zeroed out. We will then know that you 
have really put your shoulder to it, you have helped educate 
those folks, and you have shown them what value you can bring. 
I do believe that you can bring that value. I do believe that 
your focus from the investment side can be exactly that that we 
are hoping to be able to address.
    You point out that there are many smart scientists at ARPA-
E. You are right. I have met many of them.
    I also know that as smart as they are as scientists, they 
might not be the best in the financial world. Those that can 
knit together the financing opportunities, we need to help 
figure out how to make those connections as well.
    ARPA-E's role is not to be the financer, but it is to be 
the one to be the facilitator. I am encouraged that you have 
had some experience in facilitating just that. I am encouraged 
to know that as an investor you looked at some risky energy 
projects and chose to advance them. Some of them do not always 
work, but if they always worked they would be easy to finance.
    So you bring a different perspective, I think an important 
perspective, and my hope is that you will share with the 
Administration that there is strong, strong support for ARPA-E 
within the Congress and that you look forward to helping to 
advance that.
    Mr. Cooper, again, thank you for your efforts previously in 
the Congress. We wish you both well.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:36 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------    
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
